HHS/OIG-Audit--"Office of Inspector General Partnership with the State of Ohio, Office of the Auditor's Report on Review of Medicaid Provider Reimbursement Made to Crest Transportation Service, (A-05-00-00091)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General Partnership with the State of Ohio, Office
of the Auditor's Report on Review of Medicaid Provider Reimbursement Made
to Crest Transportation Service," (A-05-00-00091)
November 20, 2000
Complete Text of Report is available in PDF format
(1.81 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was made by the Ohio Office of the Auditor and was provided to us
as part of the Inspector General's partnership efforts with States to expand
audit coverage of the Medicaid program. The State Auditor's final report points
out that Crest Transportation Service was unable to provide documentation for
a statistical sample of Medicaid transportation services billed during the period
January 1, 1996 through March 31, 2000. Because of the lack of documentation--no
support that trips occurred, missing physician certifications to support the
medical necessity of any trips, and other evidence--the State Auditor questioned
$1,001,675 (Federal share approximately $590,000) in provider reimbursements
during the audit period. The State Auditor recommended that the Ohio Department
of Human Services determine whether the overpayments constitute fraud and abuse,
initiate proceedings to recoup all or part of the overpayments, and consider
termination of the provider's Medicaid agreement. The case was referred to the
Ohio Medicaid Fraud Control Unit for investigation and possible legal action.